<html>
<title> - S. 1509, THE PROPOSED ERIC AND BRIAN SIMON ACT OF 2003</title>
<body><pre>[Senate Hearing 108-831]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-831

         S. 1509, THE PROPOSED ERIC AND BRIAN SIMON ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2004

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-730                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                 ARLEN SPECTER, Pennsylvania, Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
LARRY E. CRAIG, Idaho                JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
JIM BUNNING, Kentucky                JAMES M. JEFFORDS, (I) Vermont
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
LINDSEY O. GRAHAM, South Carolina    PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               ZELL MILLER, Georgia
                                     E. BENJAMIN NELSON, Nebraska
           William F. Tuerk, Staff Director and Chief Counsel
         Bryant Hall, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                             March 9, 2004
                                SENATORS

                                                                   Page
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............     1
Coleman, Hon. Norm, U.S. Senator from Minnesota..................     1

                               WITNESSES

Simon, Douglas B., Veseli, Minnesota.............................     3
    Prepared statement...........................................     4
Simon, Eric M., Veseli, Minnesota................................     5
    Prepared sattement...........................................     6

                                APPENDIX

Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  prepared statement.............................................     9

 
         S. 1509, THE PROPOSED ERIC AND BRIAN SIMON ACT OF 2003

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:44 p.m., in 
room SR-418, Russell Senate Office Building, Hon. Arlen Specter 
(chairman of the committee) presiding.
    Present: Senator Specter.
    Also present: Senator Coleman.

         STATEMENT OF HON. ARLEN SPECTER, U.S. SENATOR 
                       FROM PENNSYLVANIA

    Chairman Specter. Good afternoon, everyone. We are here 
this afternoon to hear testimony from Mr. Douglas Simon, a man 
who has endured a family tragedy of a tremendous nature, and 
one of his sons, Eric Simon.
    The plight of this family from Veseli, Minnesota, came to 
my attention through my very good friend, Senator Norm Coleman. 
I will defer now to Senator Coleman to introduce his 
constituents and to make a statement concerning their 
circumstances.
    I do want to welcome both the elder and the younger Mr. 
Simon to this committee hearing room. We are anxious to hear 
your story, and not atypically, they have scheduled a vote, 
which can happen at any time, and when the bills ring for a 
vote, it takes precedence, even if we are in the White House.
    Senator Coleman, thank you very much for your diligence 
here and welcome to this committee. We look forward to your 
presentation.

         STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR 
                         FROM MINNESOTA

    Senator Coleman. Thank you, thank you, Mr. Chairman. I want 
to begin by expressing my deep appreciation for Chairman 
Specter and his willingness to work with me, his deep 
compassion, and I am just very, very, very appreciative. This 
hearing would not have taken place without the actions of this 
great chairman. So Mr. Chairman, thank you very, very much.
    During the early 1980s, when we were literally just 
beginning to learn what HIV/AIDS is and how it is transmitted, 
there were many, many individuals who contracted the disease 
through blood transfusions. Some of these individuals received 
tainted blood as a result of injuries sustained while serving 
in the United States Armed Forces. Mr. Douglas Simon, who is 
here with us today, is one such individual.
    Currently, the Veterans' Administration provides health 
care to some 2,800 veterans who have contracted AIDS in this 
manner. The VA also provides disability compensation to 
veterans with AIDS and death and education benefits to the 
families of veterans who succumb to AIDS. In this respect, the 
VA treats AIDS like other service-related health conditions.
    However, in an important way, AIDS is not like other 
service-connected illnesses. AIDS can be directly transmitted 
to spouses and unborn children of the service members, as we 
will see.
    Mr. Chairman, this is what happened in the case of Doug 
Simon. However, by law, the VA cannot provide any sort of 
benefits for illnesses contracted by these family members. I 
leave it to Doug and Eric Simon, and Eric will testify. Brother 
Brian is also here, so the family is here with us. But I leave 
it to Doug and Eric to share with the committee in detail the 
difficult experience with you. They can express what they have 
endured better than I can.
    But I will tell you that this is a family that has suffered 
tremendously as the result of a service-related condition. Eric 
and Brian's mom, Nancy, succumbed to AIDS after a brave and 
long fight in 1996. Though they were much younger then, these 
boys had already been through a lot. This family also mourned 
the loss of Candace Simon, a beloved daughter and sister. This 
beautiful, innocent young girl was taken by this horrible 
disease in 1993, just three days before her sixth birthday.
    This is tough stuff, very tough stuff, Mr. Chairman. This 
is a painful tale to tell, painful beyond words. But I share it 
with you to show what remarkable individuals sit before us 
today. These young men have lost their mother and their sister 
to AIDS and they have been tireless in taking care of their 
sick father. These two young men have had to grow up very, very 
quickly, Mr. Chairman, and words cannot convey how proud I am 
of Eric and Brian, talk about courage and talk about character.
    Unable to receive justice from the courts, the Simon family 
is looking to Congress to correct this injustice. Last year, I 
introduced S. 1509, the Eric and Brian Simon Act, as a starting 
point for giving a fair deal to veterans and their families 
with AIDS. So S. 1509 would provide a one-time $100,000 benefit 
to veterans who receive AIDS as a result of a blood transfusion 
from a service-related injury, spouses who contracted AIDS from 
contact with the infected veteran, and offspring of the veteran 
or spouse who are infected with HIV/AIDS at birth. In the event 
the veteran or family member has already succumbed to AIDS, the 
compensation would be given to survivors.
    I would note, Mr. Chairman, there is precedence for this 
type of compensation. The 1998 Ricky Ray bill provided a one-
time $100,000 compensation to individuals and their spouses who 
contracted HIV/AIDS from hemophilia treatment. What I am 
proposing is that we give the same kind of assistance to the 
men and women who serve in our Armed Forces and their families.
    Mr. Chairman, we have an obligation to care for our 
veterans and their families. It is my hope that after hearing 
our witnesses discuss the unique circumstances, the Congress 
will take a serious look at developing a legislative fix to 
care for veteran with AIDS and their families.
    With this goal in mind, I can't think of a better chair to 
have for this committee nor one more dedicated to our veterans 
than you, Mr. Chairman, and I look forward to working with you 
to right this wrong. Thank you once again for working with my 
office to hold this important hearing.
    I am honored to introduce to the committee Mr. Douglas 
Simon, Mr. Eric Simon, accompanied by Mr. Brian Simon. Thank 
you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Coleman, for 
your outstanding work here and generally.
    Thank you for joining us, Mr. Douglas Simon. We look 
forward to your testimony. You may begin.

        STATEMENT OF DOUGLAS B. SIMON, VESELI, MINNESOTA

    Mr. Douglas Simon. Chairman Specter, Ranking Member Graham, 
and other distinguished members of the committee, thank you for 
this opportunity to testify to you about the Eric and Brian 
Simon Act of 2003. It has been my goal to testify on Capitol 
Hill about my life and battle with HIV, which I contracted 
while serving our Army National Guard at Fort Benning, Georgia, 
in 1983.
    I wanted to share three thoughts. First, I believe my 
family and others suffering the same horrible situation deserve 
compensation for the military mistake in not screening my blood 
transfusion. Shortly after my daughter Candace was born, I 
found out that I contracted HIV after receiving a blood 
transfusion at Martin Army Hospital. At first, the reality 
didn't sink in. Then my wife and I saw our baby daughter 
practically live her entire painful life in the Minneapolis 
Children's Hospital. Candace survived on morphine and would 
pray out loud to God that he would take her soon to heaven to 
stop the pain. It was terrifying to witness my baby girl dying 
so slowly and in so much pain.
    Then the disease began to take its toll on me and my 
family. As a result of this disease, I have suffered strokes, 
encephalitis, staph, pneumonia, and loss of use of my bladder. 
I am basically a paraplegic and suffer deep depression and 
anxiety. Also, I take over 30 prescriptions per day. During the 
past 20 years, I have spent my life in and out of hospitals. My 
last hospital stay was January 2004.
    Second, I know that they say life isn't fair, but it is 
unjust that I am unable to seek compensation because of a 
mistake made by the Federal Government and not a private 
hospital. I have been unable to sue for damages. It is like 
being punished for a crime I didn't commit.
    Four months before my transfusion in 1983, April 1983, the 
military adopted guidelines of the Food and Drug Administration 
and recommended that people at high risk for contracting this 
virus voluntarily refrain from donating blood.
    Third, I would have been able to live a healthy and full 
life if it were not for this transfusion. Instead, since my 
surgery, I have been unable to work. My life is rapidly 
diminishing. My wife and daughter have already died from HIV.
    The Eric and Brian Simon Act of 2003 provides a gratuity to 
the veterans, such as myself, spouses, and their children who 
have contracted HIV or AIDS as the result of a blood 
transfusion related to a service-connected disability and for 
other purposes. This bill is right for veterans, spouses, and 
their children who have been harmed by serving their country. 
It provides a sense of justice and something to provide for my 
sons after my life has ended due to the military's mistakes.
    I ask you to consider with common sense and compassion the 
Eric and Brian Simon Act of 2003. I thank you for your time. I 
am available for questions.
    Chairman Specter. Thank you very much, Mr. Simon. Thank you 
very much for that very impressive testimony.
    [The prepared statement of Mr. Douglas Simon follows:]

         Prepared Statement of Douglas Simon, Veseli, Minnesota

    Chairman Specter, Ranking Member Graham, and other distinguished 
members of the committee. I would like to thank you for the opportunity 
to be here today to talk about the Eric and Brian Simon Act of 2003.
    I am very lucky to be here today to speak with you, thanks to 
recent developments in medication to help fight the HIV/AIDS virus 
which quickly took my wife and daughter. I contracted the AIDS virus 
through a blood transfusion while serving our country in the National 
Guard at Fort Benning, Georgia in 1983.
    The blood I received (nine pints) had the virus. Six months 
earlier, the FDA warned the military that blood was supposed to be 
screened but that didn't happen and the military was neglectful. 
Therefore, now I am here today bound to my wheelchair with the support 
and love of my two sons, Brian & Eric Simon.
    We did not find out about the virus until my daughter, Candace, 
began getting sick. ``Daddy, my tummy hurts'' was a common complaint of 
my little girl. Candace Rose Simon began to deteriorate slowly and 
painfully while she was still a very little girl.
    Tumors, coughing, and constant pain was hard for her. It tore me up 
inside to see such a beautiful angel go through something so terrible. 
It was also hard for my wife who has since passed away after Candace 
died. Nancy, my wife, contracted the virus through me and then onto 
Candace when she was born.
    My two boys, Brian & Eric have been through hell watching their 
mother and sister die. I can't imagine two young boys going through so 
much pain and suffering.
    No one deserves to go through this. There was a costly mistake made 
and so we've been paying for it with enormous amounts of pain. I want 
make sure that it doesn't happen. I believe there should be 
compensation made for this mistake.
    The Eric and Brian Simon Act of 2003 provides justice and a form of 
compensation. I ask you to consider with common sense, compassion, and 
consideration the Eric and Brian Simon Act of 2003.

                          THE DOUG SIMON STORY

    Doug Simon joined the Minnesota Army National Guard shortly after 
graduating from New Prague High School in Minnesota. In August 1983, 
while on active duty at Fort Benning, he had surgery at the Martin Army 
Community Hospital for sudden and severe bleeding.
    To replace the blood he had lost, he required several transfusions. 
Investigators eventually tracked Mr. Simon's blood transfusion to nine 
donors, and one tested positive for HIV.
    Four months before Mr. Simon's transfusions, the military adopted 
US Food and Drug Administration HIV/AIDS screening regulations. Mr. 
Simon returned home to Minnesota that December. Mr. Simon married his 
high school sweetheart, Nancy and the couple together dreamed about 
wanting a rambler home to share with four children and ``a perfect 
rural Minnesota family life.''
    They lived together, in Mrs. Simon's hometown, Veseli, Minnesota, 
which has a population of 170. Mrs. Simon was a rural Minnesota 
homemaker and Mr. Simon started a career as a painter and wallboard 
installer. Mr. Simon enjoyed softball but within months of his 
transfusion was unable to play anymore softball because of his brain 
infection.
    Together, Mr. and Mrs. Simon had three children, Brian, Eric, and 
Candace. Candace Rose Simon died of AIDS, three days before her sixth 
birthday. She contracted the virus either in utero or by breast 
feeding. ``Daddy, my tummy hurts'' was a common complaint of Mr. 
Simon's little girl and piercing words that he still clearly remembers. 
Candace was hospitalized 10 times during the last two years of her 
life.
    ``Tumors, coughing, and constant pain was hard for her. It tore me 
up inside to see such a beautiful angel go through something so 
terrible.'' Mr. Simon recalls.
    Mrs. Simon became one of the nation's leading speakers on the HIV/
AIDS virus before she died after twelve years of battling the virus. 
``Pretty soon everybody is going to know somebody with the AIDS 
virus,'' she once predicted.
    Mr. Simon has spent his post-military life shuttling back and forth 
between his home in Veseli and hospitals in Minneapolis. He is now 
confined to a wheel chair and his two sons have become his caregivers.
    Brian and Eric, have been through hell watching their mother and 
sister die and I can't imagine them going through so much more pain and 
suffering, Mr. Simon maintains.
    Brian, age 18, is currently unemployed. Eric, age 17, is currently 
a senior at New Prague High and runs a landscaping and painting 
business to ``make the ends meet.'' Daily, the two boys, give their dad 
medicine and lift him in and out of his wheelchair.
    They cook the meals, wash clothes and pick their father off the 
ground when he falls from his wheelchair. They are not the typical 
teenagers, instead they have been children raising their father.
    ``No one deserves to go through this. There was a costly mistake 
made and so we've been paying for it with enormous amount of pain,'' 
Mr. Simon states. ``I want to make sure that it doesn't happen again. I 
believe there should be compensation.''
    The Brian and Eric Simon Act of 2003 provides a gratuity, justice, 
and a sense of compassion, he concludes.

    Chairman Specter. Mr. Eric Simon.

         STATEMENT OF ERIC M. SIMON, VESELI, MINNESOTA

    Mr. Eric Simon. Chairman Specter, Ranking Member Graham, 
and other distinguished members of the committee, I would like 
to thank you for the opportunity to speak to you today about my 
and my brother's bill, the Eric and Brian Simon Act of 2003.
    I am 18 years old, a senior at New Prague High School in 
Minnesota. I have spent my entire life dealing with the effects 
of AIDS. In 1992, the first tragedy struck in my family when my 
baby sister died after fighting with AIDS through her short 5-
year life. She and I were very close and I miss her very much.
    Next, in 1996, my mother, who was everything to me, took 
her last breath while I was sitting next to her on her bed. She 
had a very painful experience with HIV. She went from not being 
able to care for her sons to losing her eyesight, and then not 
being able to walk, and then eventually not being able to talk. 
So now at this point, I had lost half of my family and all I 
could think about is when I would lose the other half.
    Today, I would like to share with you three thoughts. 
First, I believe my family and others suffering with the same 
horrible situation deserve compensation for the military's 
mistake that led to my father contracting HIV. I am not the 
typical teenager. Instead, I own and operate my own small 
business to pay some of the family's bills. I help my father 
get dressed and make sure he gets his medications daily.
    I haven't been able to enjoy typical teenager activities. 
Instead of playing hockey or other sports, I research the 
Internet, learning about AIDS. I am caregiver for my father 
while trying to cope with an illness that has killed my family. 
I have had to witness burying two loved ones, and once every 2 
weeks I typically bring my dad to the hospital for 
appointments.
    Sometimes I have to bring my dad to the hospital at 1 
o'clock in the morning. I have been on call my entire life. 
Sometimes I skip school to take care of my dad. I cook two 
meals a day and I have had to be an adult taking care of my 
dad. It has been hard to focus on schoolwork when my brother 
and I are constantly caring for our father and worrying about 
his health and how long he will be with us. He is my dad and I 
love him.
    Second, I may be a kid, but even I realize that my family 
was wronged, and it is only right that we would receive some 
sort of compensation. We can't file a wrongful death suit 
because of legal rules. We can't collect any money. Do you 
think that is right?
    Third, I ask for your support and consideration. No one can 
change my life, and I won't kid you. It has been hard. I pray 
each day for my father's health. This is a bill that is right 
for veterans, spouses, and children who have been harmed by 
service to their country.
    Today, I have told you what my childhood has been like. 
Since 1996, I have been raising my dad and taking care of him. 
I love my father. Living with AIDS is a painful, tragic thing 
that creates fear, uncertainty, and sometimes hopeless dreams.
    I ask you to consider with common sense, compassion, and 
consideration the Eric and Brian Simon Act of 2003. Thank you 
for this excellent opportunity today, and I am available for 
your questions.
    Chairman Specter. Thank you very much, Mr. Eric Simon.
    [The prepared statement of Mr. Eric Simon follows:]

          Prepared Statement of Eric Simon, Veseli, Minnesota

    Chairman Specter, Ranking Member Graham, and other distinguished 
members of the committee. We greatly appreciate the excellent 
opportunity to come and give testimony for the Eric and Brian Simon Act 
of 2003.
    In 1983, my father, Doug Simon, was training in the Army National 
Guard at Fort Benning in Georgia. During training he became ill and 
required surgery. During his operation he received a blood transfusion. 
The blood he was given was tainted with the AIDS virus which had not 
been properly screened. My mother, Nancy, was pregnant with my older 
brother, Brian. I, their second son, was born two years later with a 
high risk of contracting the virus, but I didn't contract the disease.
    Our family didn't learn about the nature of this terrible disease 
until my little sister Candace (who was born in 1988) became terribly 
ill. Our whole family was then tested and all but my brother and I 
tested positive for HIV. Reality did not sink in for my parents right 
away. My brother and I were still very young. From the time, we found 
out about our misfortune to the time of my sister's death at the 
Minneapolis Children's Hospital in Minnesota, we had dealt with very 
much sadness and pain.
    Candace was only a baby girl and she made her home at the hospital. 
The rest of us often lived there as well. Candace's pain took a toll on 
everyone. Why does someone that young have to deal with something so 
large? Candace prayed to God to take her to heaven so she would have no 
more pain and I'm very glad God took her to heaven and stopped her 
pain, but it still left a deep wound in all of our hearts.
    As my brother and I were getting older, we were realizing what our 
life was turning into, a nightmare that we would never wake up from. We 
still didn't know what path in life we would be forced to take since we 
had two parents that were starting to feel the affects of the disease. 
I grew up around cameras and newspapers which gave me a lot of 
attention, but why did it have to be this type of attention? Why not 
for a star player at a baseball game or for saving someone's life?
    I remember having to bury my sister. I will always remember that. 
My mother was becoming very ill in 1996 and was no longer able to care 
for her two sons and the motherly role was passed on to my grandmother 
and my aunt.
    My parents were split up because of my sister's death and that just 
made it twice as hard on my brother and me. My mother had wanted to die 
out at my aunt's farm by New Prague, Minnesota. So we moved there to 
wait for our mother's death. Every day consisted of the same thoughts; 
thoughts of my mother dying and no longer being able to hug me and hold 
me.
    She began to lose her eyesight so she couldn't even see the 
Mother's Day present that we made her in school. She could no longer 
stand or go to the bathroom herself. She was in fear of death but on 
the other hand she was excited to finally be with her baby daughter in 
heaven. She had a morphine pack that she was able to push a button and 
the morphine was electronically injected into her and that's how she 
survived the pain. But, eventually nothing worked. She would cry and 
cry and she became delusional on the thought of death.
    My brother's and my mind were spinning in circles. We didn't know 
who to talk to or what to say or even where to turn. Eventually, my 
mother went into a coma and as weeks went on she began to look like a 
skeleton and while I was next to her bed on that afternoon, my mother, 
my everything, took her last breath. Since that day I have not cried, I 
have seen it all and been through it all and I have no more tears left 
to shed.
    After the death of my mother, my brother and I moved in with our 
father at his parent's house. My father had suffered a stroke and was 
bound to a wheel chair. The only thought that was going through my mind 
was how can I handle anymore death?
    Is it even possible? So I feared for my father's death and I still 
do everyday when I wake up in the morning and every night when I go to 
bed.
    During each day, my brother and I are my father's caregivers and 
his life. We cook meals, wash clothes, make sure he takes his pills, we 
pick him off the ground when he falls, drive him to the hospital weekly 
and we still manage to have a normal life, or at least try to have a 
normal life. I love my father very much and I'm the most thankful 
person in the world to have what I have today, because my father is 
everything to me.
    This is my life story and the way it has been for me and still I'm 
very thankful.
    I ask you to consider the Eric and Brian Simon Act of 2003 to help 
my family and to help any other families in the same situation as mine 
and to also protect people and families that may fall victim to the 
same military mistake in the future.
    Veterans are what make this country our country, they protect it 
and insure our safety, and to not consider this bill for my family and 
for a military veteran would be wrong.
    I ask you again to consider with common sense, compassion and 
consideration, the Eric and Brian Simon Act of 2003.
    Thank you for your time.

    Chairman Specter. Thank you, Mr. Douglas Simon, for your 
service as a Reservist. The Reservists are bearing the brunt of 
the war today in Iraq and Afghanistan and being called around 
the country. So there is no doubt about your great service to 
your country. Thank you, Eric, for taking care of your father.
    My inclinations are to support Senator Coleman. Before 
making a final decision, I want to review to see what the 
financial impact would be on the government--which is something 
we have to consider--how many people would be similarly 
situated. But there is no doubt. You are being given 
disability, but that is hardly adequate for what has happened 
and we understand that and there are potential benefits for 
your sons' education only under certain circumstances.
    We are about out of time. The vote has just occurred. I 
think we have a full grasp of what is involved here and we will 
consider it very, very carefully.
    Again, I thank you, Senator Coleman, for bringing this to 
the committee's attention.
    Senator Coleman. Thank you, Senator Specter. Again, votes 
kind of rule our timing and our life. I am told we have less 
than a minute left.
    Just a note. Mr. Simon would tell you that his care, his VA 
care, was good. He got great health care, excellent. But the 
reality is, this is a family that has never received an apology 
from the government. His mom died, his wife, daughter, and 
sister died and find themselves unable to receive anything to 
compensate them, and certainly money can't compensate, but the 
reality is this family has been through some very difficult 
circumstances, Mr. Chairman.
    I want to thank you again for allowing them to tell the 
story as part of the official record. We will share it with 
other members and hopefully go forth from here.
    Chairman Specter. Thank you, Senator Coleman, and thank 
you, Mr. Simon and Mr. Simon. Thank you.
    We are going to run now. We have a vote and have to show up 
on the Senate floor. The hearing is adjourned.
    [Whereupon, at 2:58 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


   Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator 
                             from Colorado

    Good morning, Mr. Chairman. I thank you for convening this 
hearing in which we will hear testimony on Senator Coleman's 
bill,
    S. 1509, which would provide benefits to veterans who 
became infected with AIDS in the service from blood 
transfusions. It would also provide benefits to the veteran's 
family members who contracted the disease from the veteran.
    I understand that these benefits would be provided from 
mandatory funds and that there is no precedent for VA to payout 
lump sum compensation benefits to veterans or their family 
members. I further understand that the legislation is modeled 
after the Ricky Ray Hemophilia Relief Act of 1998.
    The fact that a number of veterans were given contaminated 
blood while in the service of their country is tragic. And, I 
believe the VA had an obligation to inform anyone immediately 
upon the discovery of such a situation. However, there are a 
number of questions that will have to be explored as we 
consider this legislation. How many vets have contracted AIDs 
through service-connected transfusions? Who will have the 
burden of proof that the AIDS virus was contracted by 
transfusion?
    As a cosponsor of S. 1143, the Hepatitis C Epidemic Control 
and Prevention Act, I know that many people with HIV are also 
co-infected with Hepatitis C. Should the VA compensate family 
members who contract Hepatitis C from a veteran?
    I welcome Mr. Simon and his son Eric. I look forward to 
their testimony as we begin to explore this issue.
    Thank you, Mr. Chairman.
  

                                  <all>

</pre></body></html>
